              CLEARANCE PROCESS

                        EXECUTIVE SUMMARY
We found that the clearance process for separating employees needs improvement.
As a consequence, required steps were not always followed, including collection of
government passports; deletion of network accounts; and repayment of bonuses
under continuing service agreements. Also, the clearance process needs to be
extended to contractors.
We are recommending several corrective actions, including written guidance and
discussions with administrative contacts, as explained in the Audit Results section.



                     SCOPE AND OBJECTIVES
Our audit objectives were to evaluate compliance with the Commission’s clearance
procedures for separating employees, and to identify any needed improvements.
During the audit, we interviewed Commission staff, reviewed clearance
documentation, and selected several samples of separating employees for detailed
review.
The audit was performed from June to August 2000 in accordance with generally
accepted government auditing standards, with one exception. Because of time
constraints, we did not evaluate the validity and reliability of data from several
information systems used in the audit. In our opinion, detailed testing of these
information systems would most likely not have materially affected our findings.



                                   BACKGROUND
Our most recent previous audit (Audit No. 140) of the clearance process was issued
in November 1990. The procedures for separating employees are covered in SECR 7-
4, Employee Clearance Process, issued December 31, 1999.1 The primary control is
SEC Form 1455, the Employee Clearance Record (see the Appendix).
The clearance process begins in the separating employee’s office. The
Administrative Contact (AC) or other administrative staff initiates a personnel
action, and notifies the Office of Administrative and Personnel Management

1   The regulation also covers procedures for employees transferring within or between Commission
    offices.
                                                                                         2



(OAPM) and the Office of the Comptroller (OC). The employee returns office
equipment and government property, and transfers files and data to the supervisor.
The employee clears with several other offices listed on the clearance form. For
example, the Office of the Secretary (OS) verifies that government passports are
returned, while the Office of Information Technology (OIT) deletes all computer
access codes. In the field offices, the clearing official (e.g., Administrative Contact) is
supposed to consult with appropriate clearing officials at headquarters.



                           AUDIT RESULTS
We found that compliance with the clearance procedures can be improved, and that
the procedures themselves need improvements. Our findings and recommendations
are set forth below. We verbally discussed some less significant issues with
clearance officials, rather than including them in this report. Management
generally concurred with our suggestions.


ACCOUNTABILITY
Currently, the Office of Filings and Information Services (OFIS) has overall
responsibility for implementing SECR 7-4, the Employee Clearance Process. There
are numerous offices (e.g., OAPM, OFIS, OC, OIT, OS, OED) involved in the
clearance process. OFIS only performs one step in the clearance process, while
much of the processing is performed by OAPM. OAPM also has more direct
communication with the clearing officials that are used to administer the process.
OAPM would appear to be better situated and posses more relevant skills to carry
out this function. Accountability would also improve if OAPM were assigned the
clearance process.

       Recommendation A
       OED should consider whether an organization other than OFIS should be
       accountable for coordinating the clearance process.

       Recommendation B
       The Office assigned overall responsibility by OED (see Recommendation A)
       should, in consultation with the various offices involved in the clearance
       process, discuss clearance issues (e.g., the need of clearing officials in the
       field offices to consult with clearing officials at headquarters) with the
       clearing officials throughout the Commission. They should also issue written
       guidance on these issues (either supplementing the clearance regulation or
       revising it).




CLEARANCE PROCESS (AUDIT 323)                                     SEPTEMBER 29, 2000
                                                                                       3



CLEARANCE FORMS
During the audit, we requested numerous clearance forms. We noticed that some
forms were not properly completed.

       Recommendation C
       The Office assigned overall responsibility by OED (see Recommendation A)
       should, in consultation with OC, verify that a clearance form has been
       received and properly completed before releasing the employee’s final salary
       check.

Some sections of the clearance form, even if properly completed, would generally not
provide the user with adequate information. For instance, when OS signs the
clearance form, a “yes” means that OS was visited. The form does not indicate
whether a passport was issued and returned, issued and not returned, or not issued.


       Recommendation D
       The Office assigned overall responsibility by OED (see Recommendation A)
       should, in consultation with the various offices involved in the clearance
       process, revise the clearance form or provide additional guidance to provide
       the user with adequate information.


CONTRACTOR CLEARANCE AND ACCESS
During a recent investigation, our office learned that three contractor employees did
not return their identification badges after ending work on a Commission contract.
One of these former contractors was observed on a non-public floor of the Judiciary
Plaza building, posing a security risk. We also found that some contractors who
work on the public lower levels of the Judiciary Plaza building had identification
badges allowing them access to the entire building. They did not have an apparent
need for this access.
Contractors may also have network and e-mail accounts that should be deleted when
they leave. They are not subject to a formal clearance process. Currently, it is the
responsibility of either the Administrative Contact or the Contracting Officer’s
Technical Representative (COTR) to collect these items and/or notify the proper
clearing officials.

       Recommendation E
       The Office assigned overall responsibility by OED (see Recommendation A)
       should, in consultation with the various offices involved in the clearance
       process, establish a clearance process for contractors, and other individuals
       not subject to a formal Clearance Process.




CLEARANCE PROCESS (AUDIT 323)                                  SEPTEMBER 29, 2000
                                                                                                        4



          Recommendation F
          OAPM should modify the process for issuing building identification badges
          for contractors, in order to limit their building access, as appropriate.

During the audit, OAPM concurred with the recommendation and stated that they
will issue guidance to the Administrative Contacts in order to limit building access.


PASSPORT RETURN
Employees who travel overseas on Commission business are issued a government
passport. When separating, they are required to return the passport to OS, which
sends it to the State Department. Passports are a key identification document
subject to possible misuse, so their timely return is important.
OS indicated that separating employees from the field offices do not always return
passports. Some clearing officials from the field offices stated that they send
passports to OAPM or OC rather than to OS.
We selected a sample of ten former field office and fifteen former headquarters
employees, who were issued passports, according to OS’s records. The sampled
employees separated before OS implemented (in fiscal year 1999) an automated
system to better track passport issuance and return. 2 Seven of the field office
employees and four of the headquarters employees may not have returned their
passports to OS.3

          Recommendation G
          OS, in consultation with OAPM, the Comptroller’s Office, and the separated
          employees, should determine whether passports of the separated employees
          that we identified have been returned. If not, it should notify the State
          Department.


CONTINUING SERVICE AGREEMENTS
New employees who receive a recruitment or relocation bonus must sign a
continuing service agreement. Under the agreement, the employee must work at the
Commission at least a year, or else repay the bonus.
We reviewed an OAPM listing of all employees receiving bonuses since fiscal year
1998, and identified two employees who worked less than a year. Neither OAPM
nor OC had documentation (e.g., accounting records, canceled checks) indicating that



2   The computer system is only being used for new transactions.
3   We are unsure as to whether the passports were actually returned because: (1) the clearance form
    does not provide the user with adequate information (see Recommendation D), (2) OS’s method to
    track the issuance of passports (prior to the implementation of the computer system) was a manual
    process that was susceptible to human error, (3) the field offices may have sent the passport to
    another office, instead of OS.



CLEARANCE PROCESS (AUDIT 323)                                               SEPTEMBER 29, 2000
                                                                                                           5



the pro-rated portion of the bonus (approximately $1,750) was repaid for one of these
individuals.

           Recommendation H
           OC, in consultation with OAPM, should implement procedures to ensure that
           separating employees repay bonuses when required. OC should obtain
           repayment from the separated employee we identified, if appropriate.


COMPUTER ACCESS
ADP liaisons are required to notify OIT when an employee separates. OIT then
deletes the employee’s network and e-mail accounts. We were informed that the
ADP liaisons were generally not providing notification, until recently.
We selected thirty-nine separated employees for review.4 The network accounts
were not deleted for ten of these employees, and one employee still had an e-mail
account. We do not know whether the ADP liaison notified OIT in these instances.
However, regardless of whether the ADP liaison provided notification, OIT staff sign
the clearance form for headquarters employees.

           Recommendation I
           OIT should delete network and e-mail accounts for the employees we
           identified. It should determine whether other former staff still have
           computer access.
During the audit, OIT distributed an e-mail to ACs and ADP liaisons about deleting
e-mail accounts of former employees. OIT staff stated that they will use the
information gathered from this process to determine whether these former
employees also have LAN accounts and access to other Commission computer
systems. OIT staff also indicated that they would soon implement a database for
identifying who has access to the various Commission computer systems. This
database should help ensure that access is deleted in a timely manner, when
employees separate.


MISCELLANEOUS ISSUES
We identified several miscellaneous issues, which are being resolved or can be
resolved through Recommendation B (concerning written guidance and discussions
with administrative contacts). They are summarized below.
Unpaid interns (volunteers)
Unpaid interns are not completing an employee clearance form, even though they
receive access to Commission resources (e.g., identification badges, computers,
library books, and other property).

4   Because of the methodology used to select our sample, the results of our testing cannot be projected
     onto the entire universe.



CLEARANCE PROCESS (AUDIT 323)                                                  SEPTEMBER 29, 2000
                                                                                      6



Training obligations
Officials in the Employee Development Branch of OAPM stated that the field offices
are not notifying them when employees separate. The branch determines whether
separating employees have any unsatisfied training obligations. We found no
instances of any unsatisfied obligations.
Lexis-Nexis and Westlaw access
We identified numerous errors in the access reports for Lexis-Nexis and Westlaw,
including instances of former employees having access, current employees with
multiple accounts, and current employees listed in the wrong office. The contractor
involved indicated that it was aware of these problems, and was working with
Commission offices to correct them.
Department of Interior access
We recently issued a draft report on the conversion to the Department of Interior
payroll/personnel system. The report found that fifty separated employees still had
access to the system. OAPM staff concurred with our recommendation to address
this problem.
Performance Evaluations
Supervisors who leave are required to complete a performance evaluation for their
eligible staff. We found, based on our limited testing, that this requirement is
generally not being enforced, although supervisors are, in some cases, providing
input to other supervisors. None of the staff we interviewed expressed any concern
(e.g., an unfair evaluation) over how the performance evaluation was handled.




CLEARANCE PROCESS (AUDIT 323)                                 SEPTEMBER 29, 2000
